                           Closeout out for M98100036
0 n e ~ u ~ u1998,
                 s t we received an anonymous allegation that NSF's handling of a
contract and the organization it eventually provided the contract to created conflict-
of-interests problems. We discussed this issue with the NSF program staff and NSF's
Office of General Counsel and determined that the program's evaluation of the
potential contractor had substantially addressed the conflict-of-interests issues and
that this was not a matter for our office. This was not an allegation of misconduct in
science.

This inquiry is closed and no further action will be taken in this case.


Cc:    Integrity, IG




                                 Page 1 of 1
